                             Office of the Inspector General


December 20, 1999

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


The Social Security Administration’s Controls over Impairment-Related Work Expense
Income Exclusions (A-01-98-61010)


Attached is a copy of the subject final report. The objective of this audit was to review
and analyze the Social Security Administration’s (SSA) controls to ensure the accuracy
of impairment-related work expense (IRWE) income exclusions under the Supplemental
Security Income program. Specifically, we determined whether SSA documented the
need for items or services and the payment for items or services before approving
IRWE income exclusions.

You may wish to comment on any further actions taken or contemplated on our
recommendations. If you choose to comment, please provide your comments within
60 days from the date of this memorandum. If you wish to discuss the final report,
please call me or have your staff contact Daniel R. Devlin, Acting Assistant Inspector
General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




      THE SOCIAL SECURITY
  ADMINISTRATION’S CONTROLS
OVER IMPAIRMENT-RELATED WORK
  EXPENSE INCOME EXCLUSIONS

   December 1999   A-01-98-61010




AUDIT REPORT

                 E X E C U T I V E S U M M A R Y


OBJECTIVE

The objective of this audit was to review and analyze the Social Security
Administration’s (SSA) controls to ensure the accuracy of impairment-related work
expense (IRWE) income exclusions under the Supplemental Security Income (SSI)
program. Specifically, we determined whether SSA documented the need for items or
services and the payment for items or services before approving IRWE income
exclusions.

BACKGROUND

In 1972, Congress enacted the SSI program under title XVI of the Social Security Act.
The SSI program provides a minimal level of income to financially needy individuals
who are aged, blind, or disabled. The SSI program includes work incentive provisions,
which are intended to give individuals the support they need to move from dependency
to self-sufficiency.

One such work incentive is the IRWE provision. The IRWE provision was enacted by
Congress to encourage disabled individuals to return to work. It allows an individual to
deduct from gross earnings the amount the individual pays toward the costs of items
and services that enable the person to work. Since SSI is a needs based program, to
qualify for SSI payments, an individual’s income must be below a certain level. By
deducting IRWE from income, a disabled individual may earn greater wages and still
qualify for SSI payments. IRWE deductions can be made only if: (1) the cost of the
item or service is paid by the person with the disability; and (2) the person has not been,
and will not be, reimbursed for the expense. SSA field office (FO) personnel determine
whether expenses may be deducted from earnings under the IRWE provision.

RESULTS OF REVIEW

SSA does not have adequate internal controls to ensure that IRWE income exclusions
are properly verified and documented prior to SSI benefits being paid. In this regard,
SSA’s employees do not always follow established policies and procedures to verify and
document the need and payment for items or services before approving IRWE income
exclusions. Our review shows that SSA needs to strengthen its process for
documenting IRWE income exclusions to ensure the accuracy of benefit payments
under the SSI program. By not documenting the support for IRWE exclusions, SSA
cannot be certain that an estimated $1.98 million in SSI benefits were properly paid to
about 6,610 recipients in Calendar Year (CY) 1997.



                                             i
Our random sample of 200 cases from a population of 15,738 records with IRWE
income exclusions in CY 1997 showed that:

   •	 58 cases did contain evidence to support all of the IRWE income exclusions
      deducted;

   •	 93 cases did not contain evidence to support $60,662 in IRWE income
      exclusions;

   • 44 cases were not applicable to our review; and

   • 5 case folders were not provided by SSA and, hence, could not be reviewed.

We identified $60,662 in unsupported CY 1997 IRWE income exclusions for 93 sampled
records. These unsupported IRWE income exclusions resulted in potential SSI
overpayments of $25,135 to 84 SSI recipients. Projecting our sample results to the
population of CY 1997 cases with IRWE exclusions, we estimate that 7,318 cases do
not contain documentation to support $4,773,493 in IRWE exclusions. Since SSA did
not support the IRWE exclusions before issuing SSI payments to these recipients, SSA
has no assurance that the resulting SSI payments were proper. We estimate that the
unsupported IRWE exclusions for these recipients resulted in $1.98 million in SSI
benefits paid to 6,610 recipients.

To assist SSA’s employees in developing IRWE exclusions, a Modernized SSI Claims
System (MSSICS) Help Screen could be developed. This would both help to ensure
that IRWE income exclusions are made available to eligible recipients and strengthen
controls over SSA’s process to approve IRWE exclusions.

RECOMMENDATIONS

We recommend that SSA:

   •	 emphasize to its employees the importance of following established policies and
      procedures to verify and document the need and payment for items or services
      before approving IRWE income exclusions; and

   •	 revise MSSICS to assist its employees in developing and verifying IRWE income
      exclusions.

AGENCY COMMENTS

In response to our draft report, SSA officials expressed concern that we may have
overstated our estimate of SSI overpayments because our estimate was based, in part,
on cases in which no IRWE income exclusion documentation was contained in the case
folders or in MSSICS. SSA officials did, however, agree with both of our
recommendations. In response to our first recommendation, SSA stated that FO

                                          ii
employees have received training on developing and documenting IRWE, both in
MSSICS and in the case folder. In response to our second recommendation, SSA
noted that officials have instructed FO employees to use the remarks field in MSSICS to
document the fact that IRWE exclusions were verified in MSSICS cases. (See
Appendix B for the full text of SSA's comments to our draft report).

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We acknowledge that in 71 of the 93 cases with unsupported IRWE we could not locate
documentation related to IRWE income exclusions in the case folders or in MSSICS.
We also noted that, without documentation, we have no way to determine whether the
evidence was ever obtained and reviewed in accordance with SSA's policies and
procedures; and, therefore, SSA has no assurance that the resulting SSA payments
were proper.

With respect to SSA’s response to our second recommendation, we believe SSA should
take action beyond that described in its response. In our opinion, providing instructions
to FO employees to use the remarks field for this purpose, without also modifying the
MSSICS screen, will not provide adequate assurance that FO employees follow
appropriate verification procedures.




                                           iii
                        T A B L E O F C O N T E N T S


                                                                                                              Page


EXECUTIVE SUMMARY.........................................................................................i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 4


    Supported IRWE Income Exclusions................................................................. 5


    Unsupported IRWE Income Exclusions............................................................. 5


    Records Not Applicable to Our Review.............................................................. 6


    Case Folders Not Received from SSA............................................................... 6


    IRWE and MSSICS............................................................................................ 6


RECOMMENDATIONS .......................................................................................... 8


APPENDICES


   APPENDIX A - Sample Results
   APPENDIX B - Agency Comments
   APPENDIX C - Major Contributors
   APPENDIX D - SSA Organizational Chart
                               I N T R O D U C T I O N


OBJECTIVE

The objective of this audit was to review and analyze the Social Security
Administration’s (SSA) controls to ensure the accuracy of impairment-related work
expense (IRWE) income exclusions under the Supplemental Security Income (SSI)
program. Specifically, we determined whether SSA documented the need for items or
services and the payment for items or services before approving IRWE income
exclusions.

BACKGROUND

In 1972, Congress enacted the SSI program under title XVI of the Social Security Act.
The SSI program provides a minimal level of income to financially needy individuals
who are aged, blind, or disabled. SSA’s disability programs include work incentive
provisions that are intended to give individuals the support they need to move from
dependency to self-sufficiency. However, SSA has admitted that the dissemination of
work incentive information may not always be consistent, because field office (FO)
employees have a broad range of responsibilities. Furthermore, SSA recognizes that its
work incentives are sometimes difficult to understand and administer. Some FOs may
have developed expertise in SSA’s work incentives because of higher volumes of work
incentive questions and workloads than others. In its plans to improve the SSI program,
SSA has ongoing initiatives to support more directly the efforts of those who are able to
join the work force. To that end, SSA is expanding the availability of employment and
rehabilitation services, extending SSA’s work support programs and improving work
incentive information to beneficiaries.

One of SSA’s current work incentive programs is the IRWE provision. Under the IRWE
provision, the costs of certain impairment-related items and services that a person
needs to work are deducted from gross earnings in figuring substantial gainful activity1
(SGA), even if these items and services are also needed for nonwork activities. Some
examples of costs that can be deducted under IRWE include expenses related to
attendant care services, durable medical equipment, prostheses, routine drugs, and
routine medical services necessary for the control of the disabling condition. The
deductions can be made only if: (1) the cost of the item or service is paid by the person



1
  Program Operations Manual System DI 10501.001 states that substantial gainful activity means
performance of significant physical or mental activities in work for pay or profit, or in work of a type
generally performed for pay or profit. Significant activities are useful in the accomplishment of a job or the
operation of a business and have economic value.


                                                      1

with the disability; and (2) the person has not been, and will not be, reimbursed for the
expense. In September 1998, some 2.9 percent of the SSI disabled workers had a
portion of their income excluded under IRWE.2

In calculating gross earnings, SSA’s FO personnel determine whether expenses may be
deducted from earnings. If so, they deduct the amount a person pays towards the cost
of the items and services. After these expenses are deducted, SSA staff makes a
determination as to whether a recipient’s earnings represent SGA. IRWE may reduce
earnings below the SGA-level and SSA staff excludes IRWE items from earned income
in calculating an SSI recipient’s monthly benefit payment.

In determining whether an expense can be deducted under the IRWE provision, FO
personnel must determine and document whether:

    • the expense enables a person to work;

    •	 the person, because of a severe physical or mental impairment, needs the item
       or service for which the expense is incurred in order to work;

    •	 the cost is paid by the person with a disability and is not reimbursed by another
       source (e.g., Medicare, Medicaid, private insurance, etc.);

    •	 the expense is “reasonable”— that is, it represents the standard charge for the
       item or service in the person’s community;

    •	 the expense (for SGA purposes) is paid in a month in which the person with a
       disability is or was working (occasionally, an IRWE may be used before the first
       or after the last month of work activity); and

    •	 the expense (for SSI payment purposes) is paid in a month in which earned
       income is received or work is performed while the person used the impairment-
       related item or service. (In unusual situations, when the payment of an IRWE
       does not correspond to a work month, it may be possible to deduct it.)

SSA’s requirements for verifying IRWE income exclusions are stated in title 20 of the
Code of Federal Regulations, sections 416.976(g) and 416.1111. Social Security
Ruling 84-26 summarizes these responsibilities by detailing how SSA, before approving
an IRWE, must verify and document the: (1) need for the item or service; and
(2) payment for the item or service.




2
  “Quarterly Report on SSI Disabled Workers and Work Incentive Provisions," September 1998, Social
Security Administration, Office of Research, Evaluation and Statistics.


                                                 2

SCOPE AND METHODOLOGY

To accomplish our objective, we:

   •	 obtained an extract of 20,272 records of SSI recipients who had IRWE income
      exclusions that covered any month during CY 1997;

   •	 visited a FO to conduct preliminary tests of SSA’s controls over IRWE income
      exclusions;

   •	 established a sampling frame consisting of 15,738 of the 20,272 records in the
      population, after eliminating 4,534 records for recipients who did not receive
      benefit payments in CY 1997 or whose records were duplicated in our
      population;

   •	 randomly selected a sample of 200 records from the sampling frame using a
      simple random sample design;

   • requested case folders from SSA for the 200 sampled records;

   • reviewed documentation contained in the case folders received from SSA;

   •	 discussed our findings with a SSA official with regard to cases where adequate
      documentation was not found in the case folders;

   •	 obtained and reviewed available MSSICS records for selected sample cases;
      and

   •	 appraised the results of our sample and projected to the population the number
      of recipients and amount of unsupported IRWE and the resultant number of
      recipients and amount of potential SSI overpayments (see Appendix A for details
      on our sampling methodology).

Our review only included those internal controls related to whether SSA maintained the
required evidence to support the IRWE exclusions allowed. We conducted our audit
during the period of August 1998 to February 1999 in Boston, Massachusetts. This
review was conducted in accordance with generally accepted government auditing
standards.




                                           3

                    R E S U L T S O F R E V I E W


SSA does not have adequate internal controls to ensure that IRWE income exclusions
are properly verified and documented prior to SSI benefits being paid. In this regard,
SSA ’  s e m pl
              oye e s do not al w ay s fol
                                         low e s tabl
                                                    is h e d pol
                                                               icie s and proce dure s to
ve rify and docum e nt th e ne e d and paym e nt for ite m s or s e rvice s be fore approving
IRW E incom e e xcl   us ions . Our review shows that SSA needs to strengthen its process
for documenting IRWE income exclusions to ensure the accuracy of benefit payments
under the SSI program. By not documenting the support for IRWE exclusions, SSA
cannot be certain that an estimated $1.98 million in SSI benefits were properly
paid to about 6,610 recipients in CY 1997.

Work incentives such as the IRWE income exclusion provision are intended to give SSI
recipients the support they need to move from dependency to self-sufficiency through
work. SSA’s employees are responsible for administering the IRWE income exclusion
provisions in compliance with all relevant laws, regulations, and operating guidelines.
Our findings show that SSA’s employees are not fully meeting their responsibilities.

                                                                   Our random sample of
                                                                   200 cases from a
               Sample Case Results                                 population of
                                                                   15,738 records with
                                                                   IRWE income exclusions
                                                                   in CY 1997 showed that:
                                           58 IRWEs
                                           Supported
          5 Case Folders
                                            29.00%
                                                                   • 58 cases did contain
           Not Received                                            evidence to support all
              2.50%
                                                                   of the IRWE income
                                                                   exclusions deducted;

          44 Records Not                                           • 93 cases did not
            Applicable                                             contain evidence to
              22.00%                     93 IRWEs Not
                                          Supported
                                                                   support $60,662 in
                                             46.50%                IRWE income
                                                                   exclusions;


   • 44 cases were not applicable to our review; and

   • 5 case folders were not provided by SSA and, hence, could not be reviewed.




                                              4

Supported IRWE Income Exclusions

In our review of the case folders from the sampled records, we determined that IRWE
income exclusions were supported in 58 cases because the case folders contained
adequate documentation. We considered documentation adequate when it contained
sufficient, competent, and relevant evidence of need and payment and the exclusions
were mathematically accurate and within reasonable limits for the type of expense
claimed. We also reviewed IRWE-related MSSICS screens to determine whether there
were any remarks that the IRWE income exclusions had been verified.

Unsupported IRWE Income Exclusions

In 93 cases, the documentation supporting the IRWE exclusions was inadequate or
absent. In 84 of these 93 cases, if the IRWE exclusions were not considered, the SSI
benefits paid to the recipients in CY 1997 would have been less than the amount
actually paid by SSA.

We identified $60,662 in unsupported CY 1997 IRWE income exclusions for these
93 sampled records. These unsupported IRWE income exclusions resulted in potential
SSI overpayments of $25,135 to 84 SSI recipients. Projecting our sample results to the
population of CY 1997 cases with IRWE exclusions, we estimate that 7,318 cases do
not contain documentation to support $4,773,493 in IRWE exclusions. Since SSA did
not support the IRWE exclusions before issuing SSI payments to these recipients, SSA
has no assurance that the resulting SSI payments were proper. We estimate that the
unsupported IRWE exclusions for these recipients place at risk $1.98 million in SSI
benefits paid to 6,610 recipients.

In 22 of the 93 cases, documentation to support the CY 1997 IRWE income exclusion
was included in SSA’s records, but that documentation was inadequate to support the
exclusion. For example, in one instance, the recipient’s case folder contained a letter
dated May 1994, which estimated transportation expenses to be $35 per month. An
IRWE exclusion was not posted in CY 1994, but was posted for CY 1997 in the amount
of $900 for August through December 1997. The case folder contained no IRWE
documentation other than the above-mentioned 1994 letter for $35 per month in
transportation expenses. The 1994 letter supporting $35 per month in expenses was
not adequate documentation for the 1997 IRWE exclusion of $100 in August 1997 and
$200 per month for September through December 1997. Without the CY 1997 IRWE
income exclusion of $900, the recipient’s SSI payments would have been $450 less.

In 71 of the 93 cases with unsupported IRWE, there was no documentation related to
IRWE income exclusions in the case folders or in MSSICS. We recognize the
possibility that SSA employees reviewed documentation that supported the allowance of
the IRWE income exclusion without documenting their review. However, without
documentation, we have no way to determine whether the evidence was ever obtained
and reviewed in accordance with SSA’s policies and procedures. We did not ask SSA
employees to provide reasons why the documentation was not in the case folders for


                                           5

these 71 cases or whether they reviewed the evidence without documenting their
review, as we did not think it practical to expect they would remember what actions they
had taken to document CY 1997 IRWE expenses.

Records Not Applicable to Our Review

Of the 200 cases sampled for our review, 44 no longer had IRWE exclusions recorded
on their Supplemental Security Income Records when we reviewed the cases. At the
time we requested that SSA extract these records in March 1998, IRWE exclusions had
been present on these records. However, when we sampled the individual records as
part of our field work, their circumstances had changed:

    •	 33 cases had changed such that they no longer showed any CY 1997 SSI
       payments due;

    •	 7 cases had changed such that they no longer showed any CY 1997 IRWE
       income exclusions; and

    •	 4 cases showed that the IRWE field had been used to facilitate non-IRWE related
       adjustments to income.

In conducting our review, we excluded these cases and considered them to be properly
handled by SSA with regard to CY 1997 IRWE income exclusions.

Case Folders Not Received from SSA

We did not receive five of the case folders associated with cases sampled for our
review. SSA staff was unable to locate four case folders and one folder was apparently
lost in the mail. In our attempt to locate the four case folders, we made repeated
contacts with SSA staff at various SSA office locations. With respect to the fifth case,
an SSA staff person stated that the case folder had been forwarded to us, but we did
not receive it.

IRWE and MSSICS

To assist SSA staff in processing claims, a new claims system was implemented called
MSSICS. MSSICS is a system developed to maintain information— in an online,
electronic format� which was previously captured on paper documents. The system
was initially implemented as a pilot in March 1991 and was later expanded until all
offices were using it in March 1993.

In a prior Office of the Inspector General Report (OIG),3 we identified cases in which
claims representatives (CR) did not consider IRWE in determining eligibility and benefit

3
  “Payment Accuracy Task Force: SSI Earned Income Issue Team,” (A-13-98-51010), Social Security
Administration, Office of the Inspector General, Office of Audit, issued September, 1998.


                                                6

amounts. We reviewed these cases with CRs and it became evident that CRs do not
encounter IRWE issues on a daily or even monthly basis and that CR experience in the
development of these cases varies widely. In addition to CRs not encountering many
IRWE cases, during the CR training class, only 1 day is spent on all work incentive
provisions. CRs also told us that they often have very little time during the claims
process to refer to the Program Operations Manual Systems; therefore, it is possible
that the development and verification of these expenses is overlooked. They also
stated that it would be helpful if MSSICS could be modified to provide on-line
assistance, particularly for CRs in offices that have few IRWE cases.

The prior report concluded that, to assist CRs, a MSSICS Help Screen could be
developed for completing the Disabled Work Expense Screen. This Help Screen should
provide CRs with a listing of the most common IRWE, a reminder that the expenses
must be verified, as well as the related procedural references. This would ensure that
IRWE income exclusions are made available to eligible recipients and strengthen
controls over SSA’s process to approve IRWE exclusions.




                                          7

                      RECOMMENDATIONS


We recommend that SSA:

1.	 emphasize to its employees the importance of following established policies and
    procedures to verify and document the need and payment for items or services
    before approving IRWE income exclusions; and

2.	 revise MSSICS to assist SSA’s employees in developing and verifying IRWE income
    exclusions.

AGENCY COMMENTS

In response to our draft report, SSA officials expressed concern that we may have
overstated our estimate of SSI overpayments because our estimate was based, in part,
on cases in which no IRWE income exclusion documentation was contained in the case
folders or in MSSICS. SSA officials did, however, agree with both of our
recommendations. In response to our first recommendation, SSA stated that FO
employees have received training on developing and documenting IRWE, both in
MSSICS and in the case file. In response to our second recommendation, SSA noted
that officials have instructed FO employees to use the remarks field in MSSICS to
document the fact that IRWE exclusions were verified in MSSICS cases.

OIG RESPONSE

We acknowledge that in 71 of the 93 cases with unsupported IRWE we could not locate
documentation related to IRWE income exclusions in the case folders or in MSSICS.
We recognize the possibility that, with respect to these 71 cases, SSA employees
reviewed documentation that supported the allowance of the IRWE income exclusion
without documenting their review. However, without documentation, we have no way to
determine whether the evidence was ever obtained and reviewed in accordance with
SSA's policies and procedures. For this reason, we reported that since SSA's records
did not support the IRWE exclusions before issuing SSI payments to the recipients,
SSA had no assurance that the resulting SSA payments were proper.

With respect to SSA’s response to our second recommendation, we believe SSA should
take action beyond that described in its response. The MSSICS screens should include
instructions which assist FO employees with IRWE exclusions and input fields that
require staff to document whether they verified IRWE exclusions. In our opinion,
providing instructions to FO employees to use the remarks field for this purpose, without
also modifying the MSSICS screen, will not provide adequate assurance that FO
employees follow appropriate verification procedures.


                                            8

APPENDICES

                                                                                 APPENDIX A


                      S A M P L E R E S U L T S




                     Sample Results and Projections
Population Size                                                                  15,738
Sample Size                                                                         200
Attribute Projection
Sampled Records Not Fully Supported                                                  93
Projection of Records Not Fully Supported                                         7,318
Projection Lower Limit                                                            6,382
Projection Upper Limit                                                            8,267
Sampled Records Not Fully Supported with Effect on                                   84
Supplemental Security Income (SSI) Payments
Projection of Records with Effect on SSI Payments                                 6,610
Projection Lower Limit                                                            5,691
Projection Upper Limit                                                            7,557
Dollar Projections
Impairment-Related Work Expense (IRWE) Exclusions Not                           $60,662
Supported
Projection of IRWE Exclusions Not Supported                                   $4,773,493
Projection Lower Limit                                                        $3,693,583
Projection Upper Limit                                                        $5,853,402
SSI Benefits Paid Based on Unsupported IRWE Exclusions                          $25,135
Projection of SSI Benefits Paid Based on Unsupported IRWE                     $1,977,891
Exclusions
Projection Lower Limit                                                        $1,492,961
Projection Upper Limit                                                        $2,462,822
Note: Precision figures were calculated at the 90-percent confidence level.
                   APPENDIX B



AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "THE SOCIAL SECURITY ADMINISTRATION’S CONTROLS OVER
IMPAIRMENT-RELATED WORK EXPENSE INCOME EXCLUSIONS" (A-01-98-61010)


Thank you for the opportunity to review this draft report.

The objective of the audit was to review and analyze the Social
Security Administration’s (SSA) controls to ensure the accuracy
of impairment-related work expense (IRWE) income exclusions
under the Supplemental Security Income (SSI) program in order to
determine whether SSA documented the need for items or services
and the payment for items or services before approving IRWE
income exclusions.

We are concerned that in 71 of the cases the OIG examined, there
was no documentation related to IRWE income exclusions in the
case folders or in the Modernized Supplemental Security Income
Claims System (MSSICS) and have taken action to make employees
more aware of required procedures for documenting IRWE. It
should be noted, however, that OIG acknowledged that evidence
may have been reviewed in those cases and not documented in the
file. Therefore, concluding that all of these cases may have
resulted in potential SSI overpayments may substantially
overstate the overpayment estimate.

Our response to the report's two recommendations follows.

OIG Recommendation

Emphasize to SSA employees the importance of following
established policies and procedures to verify and document the
need and payment for items or services before approving IRWE
income exclusions.

Social Security Administration (SSA) Comment

We agree and are pleased to report that this recommendation has
already been implemented. As part of the SSI High-Risk
initiative, field offices (FOs) received training on earned
income, including how to develop and document IRWEs, both in
MSSICS and in the case file. In addition, the Agency, as part
of its Strategic Plan, is creating an employment support
specialist (ESS) position, for which employees will be trained
and dedicated to the task of serving those beneficiaries who
want to enter or reenter the workforce. The ESS will be



                                B-2

responsible for all the work incentive activities in FOs, and
will receive intensive training in all employment support
policies and procedures.

OIG Recommendation

Revise MSSICS to assist SSA employees in developing and
verifying IRWE income exclusions.

SSA Comment

As described to OIG in the exit conference, MSSICS help screens
already exist for IRWE exclusions. The screens list common
types of IRWEs, as well as procedural references directing the
users to the policy for computing and verifying these expenses.
The same is true for Blind Work Expenses. As part of the SSI
High-Risk training mentioned above, FO employees were instructed
to use the remarks field to document the fact that IRWEs were
verified in MSSICS cases.




                               B-3

                                                                      APPENDIX C



               MAJOR CONTRIBUTORS


Office of the Inspector General

   Roger J. Normand, Director, D is abil
                                       ity Program Audit D ivis ion
   Rona Rustigian, Deputy Director
   Steven K. Kurker, Auditor
   David Mazzola, Auditor
   Kevin Joyce, Auditor
   Judy Oliveira, Auditor




For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-01-98-61010.
                        APPENDIX D



SSA ORGANIZATIONAL CHART

